2311 Douglas Street CC ICKL E 8 E-Mail Address:

Omaha, Nebraska 68102-1214 Est contact@cocklelegalbriefs.com
ist. 1923 =

1-800-225-6964 Web Site
(402) 342-2831 www.cocklelegalbriefs.com
Fax: (402) 342-4850

No. 21-118

APPLE. INC.,
Petitioner,
v.

OPTIS CELLULAR TECHNOLOGY LLC,
OPTIS WIRELESS TECHNOLOGY, LLC, AND
UNWIRED PLANET INTERNATIONAL LIMITED,
Respondents.

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the BRIEF OF THE
COMPUTER & COMMUNICATIONS INDUSTRY ASSOCIATION AS AMICUS CURIAE IN
SUPPORT OF PETITIONER in the above entitled case complies with the typeface requirement of
Supreme Court Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and
10 point for the footnotes, and this brief contains 4324 words, excluding the parts that are

exempted by Supreme Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 27th day of August, 2021.
lam duly authorized under the laws of the State of Nebraska to administer oaths,

A ROTARY Slate of Nebraska & Chk
RENEE J. GOSS: .

Notary Public Affiant 41355

 

Ae ‘My Comm. Exp. September 5, 2023
